No. 20-1143
IN THE

Supreme Court of the United States
DENISE A. BADGEROW,
Petitioner,
v.
GREG WALTERS, et al.,
Respondents.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Thomas G. Saunders, a member of
the bar of this Court, certify that the accompanying Brief for Securities Industry and
Financial Markets Association as Amicus Curiae Supporting Respondent contains 5,573
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Executed on September 17, 2021.

THOMAS G. SAUNDERS
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6536
thomas.saunders@wilmerhale.com

